No. 20-843
NEW YORK STATE RIFLE

& PISTOL Ass'N, et al.,
Petitioners,

V.

KEVINP. BRUEN,

in His Official Capacity as
Superintendent of New York State Police, et al.,
Respondents.

AFFIDAVIT
On this 20th day of July, 2021, I, Richard Markell, hereby certify that this
BRIEF OF AMICUS CURIAE THE INDEPENDENT INSTITUTE IN SUPPORT
OF PETITIONERS was sent this same day via Federal Express Overnight Delivery
to the Supreme Court of the United States. I further certify that I have served this
same date the required copies via USPS First Class Mail and email to the counsel of
record listed below:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
paul.clement@kirkland.com
Counsel of Record for Petitioners

Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara.underwood@ag.ny.gov
Counsel of Record for Respondents

I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 20th day of July, 2021.

Richard Markell
Lantagne Legal Printing, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-04 77
COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Richard Markell appeared before me this 20th day of
the foregoing affidavit is true and exact to the best

ested that
d belief.

